    CONSOLIDATION OF
DOT ACCOUNTING FUNCTIONS
      Office of the Secretary

    Report Number: FI-2005-064
     Date Issued: June 17, 2005
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Consolidation                                                  Date:    June 17, 2005
           of DOT Accounting Functions
           Office of the Secretary
           FI-2005-064
  From:                                                                                  Reply to
           Theodore P. Alves                                                             Attn. of:   JA-20
           Assistant Inspector General for Financial
            and Information Technology Audits
    To:    Assistant Secretary for Budget and Programs/
            Chief Financial Officer

           This report presents the results of our audit of the Department of Transportation’s
           (DOT) efforts to consolidate, or transfer, routine accounting functions that are
           currently performed at 15 DOT accounting offices to the Enterprise Services
           Center (Services Center) at the Mike Monroney Aeronautical Center in Oklahoma
           City. Accounting functions that are most suitable for transfer to the Services
           Center involve the day-to-day processing of transactions, such as accounts payable
           (payments) and accounts receivable (collections). Processing those routine
           transactions is essentially the same in each accounting office. Accounting
           functions involving data analysis, decision-making, and policy-making are less
           suitable for transfer and may appropriately remain the responsibility of the
           Operating Administration.

           The CFO Act of 1990 places agency authority for financial management with each
           Department’s Chief Financial Officer (CFO). The CFO at DOT has implemented
           a single financial management system that is now used by all DOT Operating
           Administrations. Following the best practices outlined in the Government
           Accountability Office’s (GAO) Executive Guide: Creating Value Through World-
           class Financial Management, 1 the DOT CFO is actively working with the
           Operating Administrations to consolidate routine accounting functions.

           1
               GAO studied financial management practices at leading corporations before publishing this executive guide for
               Federal agencies. The Guide identifies best practices to achieve financial and operational benefits in accounting
               operations, including consolidating routine activities performed in multiple offices at a central location and
               eliminating or streamlining inefficient business processes to maximize the cost effectiveness and operational
               efficiency of the consolidated organization.
                                                                                2


The objective of this audit was to determine the extent to which DOT would
achieve financial (cost-effective) and operational (efficient) benefits by
consolidating similar, routine accounting functions at one accounting office. We
performed the audit in accordance with Generally Accepted Government Auditing
Standards prescribed by the Comptroller General of the United States and included
such tests as we considered necessary to provide reasonable assurance of detecting
abuse or illegal acts. We also evaluated the reliability of relevant computer-
generated data from DOT’s financial management system. Exhibit A further
describes our audit scope and methodology.


BACKGROUND
DOT currently has 15 accounting offices spread throughout the Department. Nine
of them are in the Federal Aviation Administration (FAA), including the FAA
Services Center at the Mike Monroney Aeronautical Center in Oklahoma City, and
six are in non-FAA Operating Administrations.

       •    FAA (9 accounting offices)
       •    Federal Highway Administration (FHWA)
       •    Federal Transit Administration (FTA)
       •    Federal Railroad Administration (FRA)
       •    Maritime Administration (MARAD)
       •    National Highway Traffic Safety Administration (NHTSA)
       •    Volpe National Transportation System (Volpe)

DOT has already fully consolidated payroll processing Department-wide and has
begun consolidating travel payments. In addition, accounting functions in seven
small DOT accounting offices have already been consolidated at the Services
Center.

   •       Office of the Secretary of Transportation (OST)
   •       OST Working Capital Fund
   •       Research and Innovative Technology Administration
   •       Office of Inspector General
   •       Surface Transportation Board
   •       Pipeline and Hazardous Materials Safety Administration
   •       Federal Motor Carrier Safety Administration

In January 2004, FAA announced plans to consolidate its eight other accounting
offices at its Services Center. In its Accounting Operations Consolidation Plan,
                                                                                                              3


FAA estimated that it would achieve cost savings of about $4.8 million a year by
consolidating the nine accounting offices. DOT supports FAA’s plan to
consolidate its accounting offices at its Services Center over the next 2 years.
DOT also requested the six non-FAA accounting offices to develop a plan by
September 2005 to consolidate routine accounting functions at the Services
Center. Five of the six offices submitted a plan, and one of the five offices,
FHWA, began transferring its routine accounting functions during this audit.

During fiscal year (FY) 2004, DOT processed about $82 billion of routine
accounting transactions (payments and collections), as shown in Table 1. Of the
$82 billion in payments and collections processed by all DOT accounting offices,
about $57 billion (70 percent) was processed by the six non-FAA accounting
offices. FAA accounting offices processed the remaining 30 percent. 2 FAA and
the six non-FAA offices spent about $46 million in FY 2004 to process payments
and collections.

       Table 1. Total Payments and Collections Processed by the
              Department in FY 2004, by Accounting Office
             Accounting          Payments and Collections                      % of Total
               Office               ($ in Thousands)
             FHWA                     $31,491,956                                   39%
             FAA                      $24,347,923                                   30%
             FTA                      $21,723,209                                   27%
             MARAD                     $1,879,496                                    2%
             FRA                       $1,342,178                                    1%
             Volpe                       $423,742                                    1%
             NHTSA                       $367,273                                    0%
              Total                   $81,575,777                                  100%


RESULTS IN BRIEF
The Department has made progress toward achieving a cost-effective and efficient
accounting operation. It has deployed, Department-wide, a new financial
management system. Because the new system standardizes how accounting
transactions are processed throughout the Department, it provides the opportunity
to achieve additional benefits by transferring the accounting functions that are
currently performed at multiple locations to a single location. Because the

2
    Total payments and collections for FY 2004 could exceed appropriations received for FY 2004 due to available
    funds carrying over from year to year.
                                                                                  4


Department has already made the capital investment to deploy an integrated
accounting system, consolidating accounting functions should provide additional
financial and operational benefits with little or no need to make additional capital
investments. The system allows accounting functions to be consolidated by
transferring to a single location the labor-intensive manual process of entering
transactions into the accounting system. Essentially, new technology has made the
existing structure for performing routine accounting functions—disbursed
throughout the Department—obsolete. In fact, DOT has already made significant
progress consolidating its accounting functions by transferring accounting
operations for seven Operating Administrations to the Services Center and by
supporting FAA’s efforts to consolidate its accounting offices over the next
2 years.

We found that both financial and operational benefits would accrue to the
Department by transferring the routine accounting functions performed at the
remaining six non-FAA accounting offices to the Services Center. However, DOT
should better document the expected financial and operational benefits so that it
can maximize the benefits achieved and provide the information that oversight
organizations, including the Office of Management and Budget and Congress,
need to make decisions about the consolidation efforts. DOT has agreed to
complete an analysis to estimate those financial and operational benefits.

Benefits will accrue from (1) fewer employees required to process accounting
transactions at the consolidated organization, (2) reduced labor costs at the
consolidated organization compared to the individual accounting offices, and
(3) reduced overhead costs for employee training, travel, and equipment. We
estimate that DOT can achieve savings of at least $2.3 million a year by
consolidating accounting operations in the six non-FAA accounting offices and
more than $7.1 million a year when FAA’s planned consolidation is included. For
the non-FAA accounting offices, DOT should save $1.4 million a year from
reduced average labor costs and another $850,000 from fewer employees needed
to process transactions, assuming that the six non-FAA offices save the same
10 percent proportion of staff that FAA expects to save. Additional savings can be
expected from reduced overhead costs, but the data were not available to calculate
the amount. DOT, however, needs to obtain a more reliable estimate of these
savings.

We also found that the Services Center has not collected the information needed to
measure its operational effectiveness. Such information is important to help the
Services Center analyze its operations and make changes to operate in the most
cost-effective manner. This is important because, as GAO reported, once
operations have been consolidated, agencies need to eliminate or streamline
inefficient business processes to maximize the cost effectiveness and operational
                                                                                                                        5


efficiency of the consolidated organization. Services Center officials have begun
collecting the needed information and plan to use it to improve their operations.

This report recommends that DOT better estimate the financial and operational
benefits it expects to achieve from consolidating accounting operations at the six
non-FAA accounting offices, collect financial and operational information to
measure the operational effectiveness of Services Center activities, and establish
goals to maximize the potential benefits by streamlining and improving
operations. We provided a copy of our draft report to the Deputy CFO, who
provided oral comments agreeing with our findings and recommendations. He
agreed that additional information about the benefits of consolidation, the
operational effectiveness of the Services Center, and measurable goals for
operational improvements are needed and agreed to develop that information.


FINDINGS AND RECOMMENDATIONS

DOT Should Better Estimate Financial and Operational Benefits
Significant financial and operational benefits can be achieved by consolidating
routine accounting functions, but DOT has not fully analyzed the extent of the
benefits nor established goals to attain these benefits. Unless DOT does so, it may
not achieve the full value of its efforts to consolidate accounting functions.


Financial Benefits
DOT has not performed a detailed analysis to estimate potential cost savings from
consolidating routine accounting functions at the six non-FAA accounting offices
that have not consolidated at the Services Center and, therefore, does not know the
value of the financial benefits that would be achieved. Without establishing
measurable goals for improvement, there is also a danger that the benefits will not
be fully achieved. GAO’s Executive Guide cited the increased opportunity to
capitalize on economies of scale as a financial benefit that can be achieved by
consolidating similar activities at a central location. GAO identified two related
ways to measure the financial benefits from achieving economies of scale:
reduced labor costs 3 and reduced unit cost of processing a transaction at the
consolidated organization rather than at individual accounting offices.


3
    The reduced labor costs result from (1) fewer employees required to process accounting transactions at the
    consolidated organization than at individual accounting offices; (2) reduced average labor costs at the location of the
    consolidated organization than at locations of individual accounting offices; and (3) reduced labor-related overhead
    costs for training, travel, and equipment.
                                                                                6


FAA performed a detailed analysis of reduced labor costs for the eight FAA
accounting offices it plans to consolidate at the Services Center. That analysis
estimated a potential cost savings of about $4.8 million annually from
consolidating entire accounting offices. FAA documented its analysis in its
Accounting Operations Consolidation Plan. Although we did not audit FAA’s
estimate, its methodology was consistent with the GAO Executive Guide for
measuring the impact of consolidating activities. FAA considered:

   • An estimated 10 percent reduction in direct labor costs because fewer
     employees would be transferring to the Services Center than are now
     employed at the other eight accounting offices,

   • Reduced average labor costs to hire employees at the Services Center in
     Oklahoma City than to hire employees at the locations of the other eight
     FAA accounting offices, and

   • Reduced overhead costs from eliminating eight accounting offices.

Overall, we estimate that DOT can save at least $2.3 million a year by
consolidating accounting functions of the six non-FAA accounting offices at the
Services Center. Cost savings can be achieved from having fewer employees to
process transactions and reduced labor costs from hiring employees in Oklahoma
City. Our estimate does not include additional savings that could be achieved
through reduced overhead costs. When combined with the $4.8 million that FAA
expects to save through its consolidation, the Department can expect to save about
$7.1 million a year.

Fewer Employees. Consolidating accounting functions should lead to cost
savings by reducing the number of people required to process accounting
transactions at a central location compared to multiple accounting offices.
Although the Department had not estimated the amount that can be saved by
consolidating the six non-FAA accounting offices, FAA estimated that it expects
to reduce the number of people processing transactions by 10 percent when it
consolidates its other eight accounting offices at the Services Center. Table 2
shows that if the six non-FAA accounting offices achieved a similar 10 percent
reduction, the Department would save about $850,000 a year. The savings
achieved from consolidating the non-FAA offices, however, may differ from the
savings FAA will achieve, and the Department should estimate overall cost
savings that will result from fewer employees required to process transactions at
the Services Center. DOT should track the actual cost savings achieved.
                                                                                  7




Table 2. Cost Savings from a 10 Percent Reduction in Personnel
             in the Six Non-FAA Accounting Offices
     DOT                    Number of     10%     Weighted Average   Annual Cost
  Accounting                  FTEs      Savings    Labor Cost Per      Savings
     Office                             in FTEs         FTE
 FHWA                        68.31        6.831        $72,003         $491,852
 MARAD                       19.15        1.915        $94,162         $180,320
 Volpe                       10.15        1.015        $75,846          $76,984
 FTA                          8.00        0.800        $77,952          $62,362
 NHTSA                        1.75        0.175       $108,808          $19,041
 FRA                          2.00        0.200        $93,982          $18,796
  Total Savings                                                        $849,355
FTE: Full-time equivalent



Reduced Labor Costs. We also estimate that DOT could save about $1.4 million
annually through lower average labor costs if it consolidates the six non-FAA
accounting offices at the Services Center. We compared the weighted average
labor costs of hiring Federal and contractor employees at the six non-FAA
accounting offices (in Washington, DC), and estimated that DOT could save on
labor costs by hiring employees to perform the routine accounting functions at the
Services Center in Oklahoma City. The results of our comparison are shown in
Table 3.
                                                                                                            8




       Table 3. Cost Savings from Reduced Labor Costs at the
    Services Center Compared to the Non-FAA Accounting Offices

      DOT             Number          Weighted           Weighted            Average            Annual
    Accounting        of FTEs         Average             Average            Annual              Cost
      Office                         Labor Cost         Labor Cost             Cost             Savings
                                      Per FTE           Per FTE at          Difference
                                                        the Services
                                                          Center
    MARAD               19.15           $94,162            $64,462            $29,700            $568,755
    FHWA                68.31           $72,003            $64,462              $7,541           $515,126
    Volpe               10.15           $75,846            $64,462            $11,384            $115,548
    FTA                     8.00        $77,952            $64,462            $13,490            $107,920
    NHTSA                   1.75      $108,808             $64,462            $44,346              $77,606
    FRA                     2.00        $93,982            $64,462            $29,520              $59,040
     Total
     Savings                                                                                   $1,443,995
FTE: full-time equivalent

Our methodology for computing average labor costs was consistent with FAA’s
analysis and the GAO Executive Guide. To compute weighted average labor
costs, we asked accounting managers in the six non-FAA accounting offices to
provide information on the percentage of full-time equivalent (FTE) employee
time devoted to processing a payment and collection transaction. We obtained
employee salaries and benefits from official pay records and multiplied total labor
costs by FTEs to arrive at total labor costs devoted to processing transactions. To
arrive at weighted average costs per FTE, we divided total FTE costs for Federal
and contractor employees by total Federal and contractor FTEs, 4 respectively.
Finally, we compared the weighted average costs per FTE for each of the six
accounting offices to the Services Center weighted average costs.

Reduced Overhead Costs. Our analysis did not include additional potential
savings from reducing overhead costs at the six non-FAA accounting offices.
Although some additional overhead cost savings are likely, we did not have a basis
to estimate the amount. Consolidating accounting functions at the six non-FAA

4
    FTEs used to perform financial reporting functions and accounting office managers were not included in the
    calculation.
                                                                                   9


accounting offices is unlikely to achieve as much savings in overhead costs as
consolidating FAA accounting offices because the non-FAA offices would need to
continue providing some accounting services, such as financial analysis and
financial management services. DOT should estimate the amount of additional
overhead savings that would be obtained from consolidating the six non-FAA
accounting offices at the Services Center.

Reduced Unit Cost of Processing a Transaction. DOT should benefit from a
lower unit cost of processing transactions if accounting functions are consolidated
at the Services Center. The unit cost of processing a transaction should decline as
the number of transactions processed increases. Therefore, it is likely that the unit
cost of processing DOT payment and collection transactions would continually
decline as more transactions are processed at the Services Center.

To compute the unit cost of processing a transaction requires information on direct
labor costs (e.g., employee salaries and benefits), FTEs, overhead costs (or
overhead rate), and the number of payment and collection transactions processed
annually.

The formula for calculating unit cost of processing payments and collections is:

FTEs x Direct Labor Costs + Overhead Costs
                                           = Unit Cost per Transaction
    Number of Transactions Processed

“FTE” represents the full-time equivalent number of employees performing
accounting functions and is calculated by converting the percentage of each
employee’s time that was devoted to performing a particular accounting function
into the total full-time equivalent positions required to perform all functions.

“Direct Labor Costs” includes salaries and benefits of non-supervisory
Government employees who process payments and collections. Direct labor also
includes both the cost of reimbursable agreements where the accounting office is
the service recipient and the cost of contracts used to provide transaction-
processing services.

“Overhead Costs” includes all costs (e.g., supervisory labor, space, training,
travel, utilities, equipment, supplies) incurred in processing payments and
collections other than direct labor costs. This is calculated as a percentage of
direct labor or as actual overhead costs incurred.

“Number of Transactions Processed” is the total number of payments and
collections processed during FY 2004 and recorded in Delphi, the Department’s
financial management system.
                                                                               10


Each of the six non-FAA accounting offices gave us information on its direct labor
costs and associated FTEs. We validated this information with official DOT
human resource and payroll records. However, we were not able to calculate the
unit costs of processing a transaction because DOT does not maintain reliable data
on the number of payment and collection transactions processed annually or
overhead costs. None of the six non-FAA accounting offices could provide
reliable data on the number of payment and collection transactions processed in
FY 2004 or on overhead costs.

We also found that data maintained in the financial management system were not
reliable for determining the number of accounting transactions processed by
accounting office. During FY 2004, accounting offices processed numerous
accounting transactions outside of the system and processed others in the system
but incorrectly. In addition, transactions processed correctly in the system were
not consistently categorized as payment or collection transactions. DOT should
obtain the data needed to measure the cost of processing a transaction and use
transaction costs as a performance measure.


Operational Benefits
DOT could also achieve operational benefits. GAO and FAA cited several
operational benefits that accrue to organizations that consolidate financial
activities. These include:

   • Fewer processing errors in individual accounting offices resulting from
     standard and consistent routine accounting processes at the central location.

   • More consistent processing of transactions at the consolidated location due
     to consistent application of existing and new DOT and Government-wide
     accounting policies.

   • Better ability to accommodate surges in workload requirements by locating
     accounting staff at one central location and reassigning staff as work
     requirements change.

   • More high-level management analyses of accounting data being done by
     accounting managers in individual accounting offices after the more routine
     accounting functions are transferred to the consolidated office.
                                                                                11


The Services Center Needs Better Data To Measure and Improve Its
Operational Effectiveness
Because the Services Center provides accounting services to many DOT Operating
Administrations and charges them for its services, it is important that it operate
efficiently and effectively. However, the Services Center has not yet collected the
financial information needed to measure its operational effectiveness and to guide
efforts to eliminate or streamline inefficient processes. The Services Center has
not tracked information on the number of transactions processed annually by
customer or the unit cost to process a transaction but has begun efforts to do so.
Good business practice dictates that organizations know their cost of doing
business, especially when they are reimbursed for the services they provide.

As DOT consolidates additional accounting functions at the Services Center, it
will need to make sure that the data collection system is fully developed and
provides reliable financial information to both measure the efficiency of Services
Center operations and provide a sound basis to identify inefficient processes and
make improvements. Without reliable data on the number of transactions
processed each year and the cost of processing each transaction, DOT will not
have assurance that its accounting activities are operating in the most efficient
manner. DOT also needs to ensure that the Services Center establishes operational
goals and tracks progress in achieving those goals.


RECOMMENDATIONS
When we discussed these issues with Services Center and senior DOT officials,
they agreed that it would be beneficial to estimate financial benefits and maximize
operational benefits from consolidating accounting functions at the Services
Center, and they have begun to do so. They also agreed to track the number of
transactions processed for each accounting office serviced by the Services Center
so they can measure the costs of processing transactions and use the data to
improve operational effectiveness. The Services Center also immediately began to
identify its information needs and to collect the appropriate data.

We recommend that the Assistant Secretary for Budget and Programs/Chief
Financial Officer:

   1. Estimate potential cost savings that would result from consolidating routine
      accounting functions at the Services Center.

   2. Continue to work with the Operating Administrations and the Services
      Center to ensure that the consolidation of routine accounting functions is
                                                                                12


      completed in a timely manner in order to maximize the benefits to both the
      Department and the Operating Administrations.

   3. Accumulate reliable data on the number of transactions the Services Center
      processes annually for each accounting office, compute the unit cost of
      processing a transaction, and use the data to improve the efficiency of
      Services Center operations.

   4. Establish financial and operational goals to identify and track expected
      benefits.


MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
The Deputy CFO provided informal comments to a draft of this report. He
concurred with the report findings and recommendations. He stated that our
estimate of potential cost savings that would result from consolidating routine
accounting functions in all DOT accounting offices at the FAA Services Center
was consistent with their preliminary estimate. He stated that OST planned to
finalize its cost savings estimate in the second quarter of FY 2006. He also stated
that the consolidation would be completed in early FY 2007. Given the FAA
proposed date of July 2006 for transitioning its eight accounting offices to the
Services Center, we believe OST’s proposed target date of early FY 2007 is a
reasonable time frame for completing the transition of accounting functions in the
six non-FAA accounting offices to the Services Center. The Services Center will
have had time to adjust to the additional workload after FAA transitions its
accounting offices. Finally, he stated that OST would improve its data, develop
goals, and track cost savings by the third quarter of FY 2006. We also believe
OST’s approach and target dates for accumulating reliable data, developing goals,
and tracking cost savings achieved is reasonable.


ACTION REQUIRED
OST’s actions are responsive to our findings and recommendations, and therefore
no further action is required.
                                                                                 13


We appreciate the courtesies and cooperation of Department of Transportation
representatives during this audit. If you have any questions concerning this report,
please call Mr. Theodore P. Alves, Assistant Inspector General for Financial and
Information Technology Audits, at (202) 366-1496 or Mary Smothers, the Project
Manager, at (410) 962-3612.

                                         #
                                                                                14




EXHIBIT A. SCOPE AND METHODOLOGY
FAA has started consolidating its eight accounting offices at its Services Center,
and seven DOT accounting offices have already consolidated their routine
accounting functions there. The audit focused on the efforts by the Department to
consolidate routine accounting functions in the remaining six non-FAA accounting
offices at the Services Center.

We reviewed the GAO Executive Guide, Creating Value Through World-class
Financial Management and the FAA Accounting Operations Consolidation Plan
to identify potential financial and operational benefits to the Department from
consolidating accounting functions. We also interviewed officials in FAA
Headquarters and the Mike Monroney Aeronautical Center on the proposed FAA
consolidation. We toured the Services Center, reviewed Service Center floor
plans, and interviewed finance officials on FAA’s plan to consolidate its eight
other accounting offices at the Services Center.

We obtained information from the six non-FAA accounting offices that had not
consolidated to identify accounting functions, types of transactions processed, and
type of staff (Federal and contractor). We compared similarities of functions and
types of transactions among the six non-FAA accounting offices and the Services
Center.

We surveyed officials of the seven DOT accounting offices that have already
consolidated accounting functions at the Services Center. We also interviewed
officials at other Government agencies that use the Services Center (i.e., the
Transportation Security Administration, U.S. Coast Guard, and Department of
Education) on the benefits of using the Services Center.

We performed the audit in accordance with Generally Accepted Government
Auditing Standards prescribed by the Comptroller General of the United States
and included such tests as we considered necessary to provide reasonable
assurance of detecting abuse or illegal acts. We also evaluated the reliability of
computer-generated data from Delphi on the number of accounting transactions
processed by accounting office. Our audit was conducted at DOT Headquarters in
Washington, DC, and the Enterprise Services Center at the Mike Monroney
Aeronautical Center in Oklahoma City, Oklahoma, from May 2004 to March
2005.




Exhibit A. Scope and Methodology
                                                        15




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                             Title

  Mary Smothers                    Project Manager

  LaKarla Lindsay                  Senior Auditor

  Brian Frist                      Analyst

  Larry Walker                     Auditor

  Jelilat Ojodu                    Auditor

  Kathleen Huycke                  Editor




Exhibit B. Major Contributors to This Report
